  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




        INTERNATIONAL TRADE
             ADMINISTRATION

   Greater Interagency Involvement and
More Effective Strategic Planning Would
  Enhance the National Export Strategy

                             Final Inspection Report
                      No. IPE-18589/September 2007




                           Public Release




        Office of Inspections and Program Evaluations
                                                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                                                     The Inspector General
                                                                                     Washington. D. C.    20230
      SEP 2 5 2007                                            ~~TES   di




MEMORANDUM FOR:                               Michelle O' Neill
                                              Acting Under Secretary for International Trade

                                              Israel Hernandez
                                              Assistant Secretary for Trade Promotion and Director General of
                                               the u. S. and Foreign Commercial Service

FROM:                                         Elizabet .
                                              Acting Ins c or General

SUBJECT:                                  Final Inspection Report:                   Greater Interagency Involvement and
                                          More Effective Strategic Planning Would Enhance the National
                                          Export Strategy (IP E- 18589)

We thank you for the detailed response to our draft report and are pleased that ITA has agreed to
take actions to address our recommendations. However , as noted , we do not agree with ITA'
statement that our report contains " several fundamental misunderstandings about the mandate
processes , and unique role of the Trade Promotion Coordinating Committee (TPCC).
Accordingly, we have not changed our basic conclusions or recommendations , but we do address
your comments and have made revisions to clarify the language in the final report and to better
recognize the ongoing efforts of the TPCC Secretariat. A copy of your complete response is
attached as an appendix to this report.

The interagency TPCC , chaired by the Secretary of Commerce , is required by the Export
Enhancement Act of 1992 " to develop a government-wide strategic plan for carrying         out Federal
export promotion and export financing programs " and to develop and submit to Congress annual
reports describing this plan , its implementation , and revisions. ! Commerce has created a TPCC
Secretariat that has three International Trade Administration (ITA) employees to provide support
for the TPCC. That staff maintains regular liaison with officials from the 18 other TPCC
member agencies , and is generally well informed about trade promotion activities at those
agencies. Each year the TPCC Secretariat and other senior Commerce officials prepare and
publish an annual  National Export Strategy         report with input from the TPCC agencies outside of
Commerce. Inspectors General from several TPCC agencies , as well as the Government
Accountability Office (GAO), have raised some concerns about this process , in particular
Commerce s need to (1) better include other agencies in the development ofthe strategy, and (2)
incorporate relevant agency trade promotion goals , performance measures , and progress reports
into the annual    National Export Strategy                report.

In reviewing the     National Export Strategy  reports for 2002 to 2006 , we found that the annual
reports often outline useful strategies and initiatives-such as the promotion of public-private
partnerships-within the context of discussing ongoing federal trade promotion efforts. These
reports do not , however , articulate a strategy, establish consistent goals for promoting exports
align agency-specific strategic objectives with government-wide export promotion strategic
I Sec. 2312 (a) (2) of the Export Enhancement Act of 1992
                                                                           , 15 V.    C. ~ 4727 (a)(2).
U.S. Department of Commerce                                                    Final Report IPE-18589
Office of Inspector General                                                            September 2007

goals, or measure progress toward meeting those goals. As such, the plan described in the
annual National Export Strategy reports does not incorporate many typical strategic planning
elements and is not a coordinated government-wide strategy, as envisioned by the 1992 Act. We
also found that the roster of TPCC members—which is established by the President—may not
include all federal agencies with a role in trade promotion activities.

The 2007 National Export Strategy report, released in June, contains several improvements that
are responsive to the recommendations in our draft report. Notably, the 2007 report contains an
appendix listing the trade promotion strategic objectives for the primary TPCC agencies and
provides specific information on the agencies’ efforts to implement these objectives. It also
more clearly articulates the government’s core export promotion priorities. While these changes
enhance the report’s value as a strategic planning document, we believe that the strategic
planning elements of the report could be further refined for 2008. (See page 7.)

                                       INTRODUCTION

The Export Enhancement Act of 1992 mandated that the President establish the TPCC. This
mandate was implemented by Executive Order 12870, signed on September 30, 1993. In
response to requirements of the Act and the Executive Order, the TPCC develops an annual
report describing the current national export strategy and progress towards its implementation.
According to the Act, this strategy should establish government-wide priorities for federal export
promotion and financing activities and
provide a plan to bring those activities of the Figure 1: Trade Promotion Coordinating Committee
                                                  Active Member Agencies
TPCC agencies into line with the priorities
(see Figure 1). The Act also anticipates that     U.S. Department of Commerce
the strategy will help to eliminate overlap       Export-Import Bank of the United States
and duplication among federal export              Overseas Private Investment Corporation
promotion activities, propose an annual           U.S. Trade and Development Agency
                                                  U.S. Small Business Administration
unified federal trade promotion budget to         U.S. Department of Agriculture
the President, through the Office of              U.S. Department of State
Management and Budget (OMB), and                  U.S. Department of Treasury
promote cooperation between state and             Office of the U.S. Trade Representative
federal export promotion activities. The          U.S. Agency for International Development
                                                  U.S. Environmental Protection Agency
annual report is to be sent by the TPCC           U.S. Department of Defense
Chairman to the Congress, with the approval U.S. Department of Energy
of the President.                                 U.S. Department of Interior
                                                U.S. Department of Labor
During the course of our recent review of       U.S. Department of Transportation
                                                Office of Management and Budget
Commerce’s trade promotion efforts and the      National Security Council/National Economic Council
coordination of those efforts with other        Council of Economic Advisers
stakeholders, we identified some ways in
which the Department could enhance both          Source: The 2006 National Export Strategy
the process used to develop the annual
National Export Strategy reports and the strategic planning value of the reports. Our original
review, which was requested by three members of Congress, including the then-Chairman of the
House Small Business Committee, was coordinated with the OIGs from six other U.S.



                                                2
U.S. Department of Commerce                                                   Final Report IPE-18589
Office of Inspector General                                                           September 2007

government organizations that had received a similar Congressional request. These include the
Departments of State, Agriculture, and the Treasury, the U.S. Agency for International
Development, the Small Business Administration, and the Millennium Challenge Corporation;
all but the last organization is a member of the TPCC. While the original scope of our review
did not anticipate the need for comments on the annual National Export Strategy, we agreed to
address this issue in a separate memorandum report at the request of some of the other OIGs
involved in the interagency review, which had raised several concerns about Commerce’s
development of the annual strategy.

Commerce OIG program evaluations are conducted to encourage effective, efficient, and
economical operations and to detect and prevent fraud, waste, and abuse. This evaluation was
conducted in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency in 2005, and was performed under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13 dated
August 31, 2006, as amended. We have discussed our findings and recommendations with the
Deputy Under Secretary for International Trade and the Director of the TPCC Secretariat. The
Deputy Under Secretary provided a response to our draft report on May 25, 2007, which we have
considered in preparing the final report. During our preparation of the final report, the TPCC
issued the 2007 National Export Strategy. Our final report acknowledges some improvements
made in that report.

                           OBSERVATIONS AND CONCLUSIONS

We found that Commerce, as the lead TPCC agency, could enhance both the process of
developing the annual National Export Strategy reports and the strategic planning value of those
reports. The TPCC Secretariat, part of Commerce’s International Trade Administration (ITA),
develops the basic themes and strategic priorities discussed in the annual National Export
Strategy in consultation with senior ITA officials and with knowledge of the activities of other
TPCC agencies, but without specifically consulting other TPCC agencies on these priorities.
While Commerce’s leadership of the TPCC can provide an effective means of focusing
interagency attention on the changing priorities of U.S. business and the Administration, we
found that the annual reports do not (1) articulate a strategy that has clear and measurable export-
related goals, (2) align export promotion goals with the strategic planning processes of its
member agencies, and (3) track agencies’ actual progress towards those goals. Our specific
findings and recommendations are as follows:

Commerce Should Establish a More Inclusive Process for Developing the National Export
Strategy Reports. The process used to develop the National Export Strategy reports does not
promote the active involvement of the TPCC member agencies in defining the strategy’s core
themes and strategic objectives. Currently, the TPCC Secretariat and ITA management outline
the basic themes and priorities for the strategy without direct consultation with the other TPCC
agencies (see Figure 2). In 2007, TPCC agencies were given two weeks to comment on the
report’s outline, and the Secretariat received formal comments from only one member agency.
The TPCC Secretariat did maintain regular contact with the member agencies on various trade
related issues throughout the year and did solicit agency comments on the draft annual report
prepared by TPCC and ITA staff. However, Commerce could do more to engage these agencies



                                                 3
U.S. Department of Commerce                                                                Final Report IPE-18589
Office of Inspector General                                                                        September 2007

                                                                     in developing the basic strategic goals and
    Figure 2:                                                        objectives of the National Export Strategy
    The Current Process for Developing the National                  by establishing a more inclusive process
    Export Strategy
                                                                     for developing the annual report to
    1.   The TPCC Secretariat develops an outline for the            Congress.
         upcoming National Export Strategy, based on its
         knowledge of the current activities of Commerce and
                                                        The OIGs from the Department of
         other TPCC-member agencies. The outline lays out
                                                        Agriculture, the U.S. Agency for
         the basic themes and priorities for the year’s strategy.
  2.                                                    International Development, and the Small
         Both Commerce’s Under Secretary for International
                                                        Business Administration reported that
         Trade and the Assistant Secretary for Trade Promotion
         and Director General of the U.S. and Foreign   their agencies are only minimally
         Commercial Service provide input to the outline.
                                                        involved in developing the objectives of
  3.     The outline is provided to the other TPCC agencies for
                                                        the National Export Strategy. 2 For
         their comments.
  4.                                                    example, the Department of Agriculture
         The TPCC Secretariat drafts the report, incorporating
                                                        OIG report on trade coordination notes
         short sections of text drafted by other agencies at the
                                                        that the TPCC Secretariat develops the
         request of the Secretariat and coordinating with other
         agencies as necessary.                         outline of the National Export Strategy
  5.     The draft report is sent to the member agencies for
                                                        reports and determines what information
         review and concurrence.
  6.     The Office of Management and Budget reviews thesubmitted by Agriculture will be included
                                                        in the final document. While the Secretary
         report as part of its process for Presidential clearance.
  7.     The approved report is submitted to Congress.  of Commerce serves as the Chairman of
                                                        the TPCC, the Executive Order
  Source: OIG synopsis of information from the TPCC     establishing the TPCC clearly assigns the
  Secretariat
                                                        responsibility of developing the National
                                                        Export Strategy to the interagency
committee, not to its Secretariat, which is organizationally part of the Department of Commerce.
Other agencies’ involvement in developing the annual reports would help to ensure that the
national strategy fully considers their key export promotion initiatives while also encouraging
them to evaluate how their export promotion efforts can support government-wide priorities.

The Deputy Under Secretary for International Trade noted in her response to our draft report that
one role of the TPCC is to clearly articulate the administration’s export promotion priorities and
enlist the TPCC member agencies to support those priorities. This function of the TPCC is
certainly important and would not be inherently weakened by additional interagency
involvement in developing the strategic priorities to be outlined by the National Export Strategy.
Rather, engaging the member agencies in articulating these priorities both leverages the expertise
of agency officials and provides an opportunity for those officials to become invested in the
priorities that they have helped to define. Commerce should take steps to ensure that TPCC
members are provided adequate opportunities to participate in developing the National Export
Strategy reports before the strategy’s basic strategic objectives have been decided.



2
 Foreign Agricultural Service Trade Promotion Operations, USDA OIG Audit Report (07601-1-Hy), February,
2007; Survey of USAID’s Trade Capacity Building Programs to Support Implementation of Free Trade Agreements,
USAID OIG Survey Report No. 9-000-07-002-S, November 30, 2006; Efforts to Assist Small Businesses Compete
In International Trade, Small Business Administration OIG, Audit Report No. 7-12, January 29, 2007.


                                                              4
U.S. Department of Commerce                                                        Final Report IPE-18589
Office of Inspector General                                                                September 2007

The National Export Strategy Does Not Establish Specific Export Promotion Goals or Use
Performance Measures To Track Program Success. In its 2002 report, GAO reported that the
National Export Strategy was too broad and did not discuss specific goals or assess progress
toward meeting those goals. 3 Our review of subsequent National Export Strategy reports shows
that little has changed. Absent the specific export promotion goals that GAO recommended, the
strategies do not provide an effective framework for focusing the activities of the TPCC agencies
to meet core export promotion priorities. Moreover, the TPCC cannot evaluate or report on the
agencies’ progress towards federal export promotion priorities without useable performance
measures.

In order for the National Export Strategy to guide federal export promotion efforts, as intended
by the legislation and Executive Order establishing the TPCC, it is critical that the TPCC
establish links between agency-specific strategic objectives and the government-wide export
promotion strategic goals that should be defined by the strategy. If the TPCC member agencies’
strategic objectives do not complement the priorities outlined by the National Export Strategy,
the agencies’ efforts are unlikely to further the government-wide export promotion strategic
goals. In order to achieve agency-specific goals that truly complement the government-wide
export promotion priorities, the TPCC should consider existing agency-specific export
promotion goals when establishing government-wide goals while TPCC agencies should
consider these government-wide goals when developing their own strategic planning objectives.
If agency-specific strategic objectives do not align with the government-wide strategic goals set
out in the National Export Strategy, the agencies are much less likely to place a priority on
supporting the government-wide strategic goals. This, of course, does not preclude additional
agency-specific goals that go beyond government-wide trade promotion goals.

Successful strategic planning processes do not only define strategic goals, they also measure
progress towards meeting those goals. While some recent National Export Strategy reports have
discussed continued efforts by TPCC agencies that are relevant to the priorities articulated in past
reports, the TPCC does not have a systematic process to assess progress made by its member
agencies towards government-wide export promotion goals. In the late 1990s, the TPCC did use
its own performance measures to track the success of TPCC export promotion activities.
However, according to the TPCC Secretariat, it became impractical to maintain these measures
after agencies began focusing on the agency-specific performance measures reported to the
Office of Management and Budget (OMB) as part of the Performance and Accountability Report
(PAR) process.

One source of information on the agencies’ progress towards meeting government-wide goals
could be the agencies’ own performance measures, particularly if the TPCC is successful in
linking agency goals more closely with government-wide export promotion priorities. Most
TPCC agencies are required to develop strategic goals and relevant performance measures as
part of the Performance and Accountability Reports they submit to OMB (see Figure 3). Those
TPCC agencies that do not participate in the PAR process do, however, develop strategic goals
and performance measures as part of their internal planning process. 4 In 2002, GAO

3
 Export Promotion: Mixed Progress in Achieving a Government-wide Strategy, GAO-02-850, September 4, 2002.
4
 USTDA, USTR, OPIC, Export-Import Bank, the National Economic Council, and the Council of Economic
Advisors do not submit performance reports to the Office of Management and Budget (OMB).


                                                    5
U.S. Department of Commerce                                                              Final Report IPE-18589
Office of Inspector General                                                                      September 2007

recommended that the TPCC Secretariat review the agencies’ PAR reports and identify relevant
performance measures to track trade promotion program success. But in 2006 GAO found that
the Secretariat had never implemented this recommendation, 5 even though the TPCC’s response
to GAO’s draft report stated that the report had “hit the mark in calling on the TPCC to provide
clear and consistent strategic guidance from year-to-year, identify agency-specific goals and
responsibilities, and regularly report on progress towards achieving recommendations.” The
TPCC should reevaluate existing agency performance measures to determine whether they could
assist in tracking progress towards meeting government-wide goals.

The current process used to develop           Figure 3: Federal Agency Planning and Measurement of
                                              Program Performance
the National Export Strategy does
not meet the strategic planning               In accordance with the 1993 Government Performance and
criteria used by OMB in its Program           Results Act (GPRA) and the 2001 President’s Management
Assessment Rating Tool (PART)                 Agenda (PMA), OMB has developed mechanisms to assess
                                              program effectiveness and facilitate strategic planning across the
evaluations. OMB evaluates the
                                              federal government.
strategic planning practices for a
program based on the following                Performance and Accountability Reports (PARs): The annual
criteria:                                     PAR submission to OMB requires agency management to assess
                                              the state of the agency’s finances and performance. The PAR
    •   Does the program have a               provides Congress and the President with key information on
        limited number of specific            agency performance, including performance results for specific
                                              agency strategic goals and audited financial statements.
        long-term performance
        measures that focus on            Program Assessment Rating Tool (PART): A PART review helps
        outcomes and meaningfully         identify a program’s strengths and weaknesses to inform funding
        reflect the purpose of the        and management decisions. Among other things, the PART
                                          assesses agencies’ strategic plans and program results, as reported
        program?
                                          in the PAR. The PART looks at factors that affect and reflect
    •   Does the program have a           program performance, including program purpose and design;
        limited number of specific        performance measurement, evaluations, and strategic planning;
        annual performance measures       program management; and program results. Because the PART
        that can demonstrate progress     includes a consistent series of analytical questions, it allows
                                          programs to show improvements over time and allows
        toward achieving the              comparisons between similar programs.
        program's long-term goals?
    •   Does the program have
        baselines and ambitious targets for its annual measures?
    •   Do all partners (including grantees, sub-grantees, contractors, cost-sharing partners, and
        other government partners) commit to and work toward the annual and/or long-term goals
        of the program?
    •   Has the program taken meaningful steps to correct its strategic planning deficiencies?
While the multi-agency structure of the TPCC creates a much more challenging strategic
planning environment than that experienced at individual agencies, OMB’s criteria suggest that
the National Export Strategy process does not have the attributes that OMB expects in federal
strategic planning processes.



5
 Export Promotion: Trade Promotion Coordinating Committee’s Role Remains Limited, GAO-06-660T, April 26,
2006.


                                                      6
U.S. Department of Commerce                                                   Final Report IPE-18589
Office of Inspector General                                                           September 2007

To carry out its role to provide a unifying framework to coordinate federal trade promotion
efforts and promote interagency coordination, the TPCC should institute a meaningful
interagency strategic planning process that: (1) identifies the core strategic goals and objectives
of federal export promotion efforts; (2) aligns agency-specific strategic objectives with
government-wide export promotion goals; (3) identifies agency-specific performance measures
relevant to government-wide export promotion goals; and (4) uses these measures or other
appropriate measures to evaluate the progress of agencies towards meeting government-wide
goals. At a minimum, the TPCC should address these issues at an annual planning meeting that
includes officials with the authority to make policy-level decisions at their respective agencies.

Some Improvements Are Noted in the 2007 National Export Strategy. The 2007 National
Export Strategy, which was released several months after our draft report, contained significant
changes from the 2006 report that address, in part, issues raised by our review. Appendix A of
the report details the strategic objectives of the primary TPCC agencies and summarizes the
agencies’ 2006 activities that are responsive to those strategies. Additionally, the 2007 report
has a clearer and more complete presentation of federal export promotion priorities than did the
2002 to 2006 annual reports. The 2007 report emphasizes the importance of trade liberalization
efforts, the effective use of E-commerce, the importance of strategic partnerships, and the
potential of high-priority export markets.

While these changes enhance the strategic planning value of the National Export Strategy,
further enhancements are necessary to fully implement our recommendations. Specifically,
neither the agency-specific strategic objectives nor the agency-specific accomplishments listed in
Appendix A of the report are explicitly linked to the major strategic themes of the report.
Having identified these themes as federal export promotion priorities, the report should clearly
show how agency-specific activities are consistent with these priorities and should identify
opportunities for agencies to further support these priorities. The report should also (1) provide
specific goals or benchmarks for individual agencies showing how their future activities can
further support the priorities established by the report and (2) measure the agencies’ progress
towards meeting those goals in future years.

The 2007 National Export Strategy also reveals that the report’s goals and objectives have
partially evolved away from what Congress originally intended for the document. While the Act
establishing the TPCC anticipated that the National Export Strategy would provide a strategic
plan guiding federal export promotion efforts, the 2007 National Export Strategy report notes
that:
       “The goals of this report are to raise awareness in the American business community
       about the advantages of exporting, to convince businesses that are not exporting to
       consider exporting, and to get those businesses that are exporting to enter more overseas
       markets.”
While these public outreach goals are certainly relevant to increasing U.S. exports, such public
outreach objectives should not distract the TPCC from its primary mandate of developing a
strategy to guide federal export promotion efforts.
The TPCC May Not Include All Relevant Agencies. The roster of TPCC members was
established by Executive Order in 1993. This roster was last updated in 2003 to include the
Department of Homeland Security (DHS), although DHS was not an active TPCC member at the


                                                 7
U.S. Department of Commerce                                                            Final Report IPE-18589
Office of Inspector General                                                                    September 2007

time of our review. 6 Another change in TPCC membership occurred in 1999 when the former
U.S. Information Agency merged with the State Department and was thus no longer a separate
TPCC member agency. Other changes in TPCC membership may be appropriate, however, as
the roles and responsibilities of federal agencies evolve and new organizations are established.

At least one new agency should be considered for inclusion as a full member of the TPCC. The
Millennium Challenge Corporation (MCC) is a U.S. government-owned corporation, established
in January 2004, with the stated mission to help reduce worldwide poverty through economic
growth, while targeting aid to reward countries with good public policies. Since 2004, MCC has
received approximately $4 billion in U.S. government appropriations. As part of its efforts to
promote economic development, MCC sponsors projects to increase the trade capacity of
developing countries. These trade capacity building projects can complement federal export
promotion efforts by helping to improve access to foreign markets for U.S. products and MCC-
funded projects can create opportunities for U.S. exporters.

Despite MCC’s involvement in trade promotion activities, it is not currently a member of the
TPCC, although our March 2007 report on trade coordination recommended that MCC be
included in relevant TPCC working groups, including a recommended working group on trade
capacity-building efforts. 7 We recognize that MCC may be reluctant to be included as a TPCC
member because it wants to avoid the perception that its development efforts are linked to U.S.
export promotion priorities. We recommend, however, that Commerce continue to engage MCC
to the greatest practical extent on trade promotion activities. As appropriate, Commerce should
work with the White House and representatives of individual agencies to revise the list of TPCC
members so that the membership roster includes all federal agencies with an important stake in
trade promotion efforts. 8 As part of this process, Commerce should also consider whether it is
appropriate to cull agencies from the membership roster that no longer play an active role in
trade promotion activities.




6
  Executive Order 13286, February 28, 2003, added the Department of Homeland Security (DHS) to the TPCC.
7
  Commerce Can Further Assist U.S. Exporters by Enhancing Its Trade Coordination Efforts (IPE-18322)
8
  The Export Enhancement Act of 1992 and Executive Order 12870 provide for the inclusion of other agencies and
departments in the TPCC “at the discretion of the President.”


                                                       8
U.S. Department of Commerce                                                 Final Report IPE-18589
Office of Inspector General                                                         September 2007

Recommendations:

We recommend that the Under Secretary for International Trade ensure that the following
actions are taken:
   1. When developing the National Export Strategy, institute a meaningful interagency
      strategic planning process that:
            a.    Identifies the core strategic goals and objectives of federal export promotion
                  efforts through an interagency consultative process;
           b.     Aligns agency-specific strategic objectives with government-wide export
                  promotion strategic goals;
           c.     Identifies any agency-specific performance measures relevant to government-
                  wide export promotion goals; and
           d.     Uses these measures to evaluate the progress of agencies towards meeting
                  government-wide export promotion goals.
   2. Continue to engage the Millennium Challenge Corporation (MCC) on trade promotion
      activities. As appropriate, work with the White House and representatives of individual
      agencies to revise the list of TPCC members so that the membership roster includes all
      federal agencies with a stake in trade promotion efforts.




ITA’s Response and OIG Comments

The Deputy Under Secretary for International Trade provided a thorough response to our draft
report that highlighted some actions that the TPCC Secretariat plans to take to address our
recommendations. We appreciate ITA’s careful consideration of our report and the actions that
the TPCC Secretariat plans in order to address our recommendations, and we have included
ITA’s response in its entirety as an appendix to this report.

While ITA’s response highlighted some useful initiatives that ITA and the TPCC will take to
address our recommendations, the agency also disagreed with many of our conclusions and
claimed that our draft report contained “several fundamental misunderstandings of the TPCC’s
mandate, processes, and unique role.” We believe our report accurately describes the TPCC’s
responsibilities with respect to the development and implementation of the annual strategic plan.
Nonetheless, we have made changes to our draft report to clarify some of the language that
appears to have been misunderstood by ITA and have added language to better articulate the
ongoing efforts of the TPCC Secretariat. We also amended the report to include a discussion of
changes made in the 2007 National Export Strategy that were partially responsive to the
recommendations in our draft report.

We recognize that the TPCC plays a unique and constructive role in coordinating interagency
trade promotion activities. We found, however, that the current process of developing the
National Export Strategy does not adequately meet the TPCC’s mandate to coordinate federal
export promotion efforts through an effective interagency strategic planning process. While


                                                9
U.S. Department of Commerce                                                   Final Report IPE-18589
Office of Inspector General                                                           September 2007

recent National Export Strategy reports may establish broad export promotion strategies, they do
not define specific goals for the various TPCC agencies that are tied to these strategies and track
progress towards meeting those goals. Thus, the recent National Export Strategy reports do not
contain two of the three core elements of a strategic planning document and do not meet all the
requirements of the 1992 Export Enhancement Act. As noted in our report, the Act calls on the
TPCC to develop government-wide priorities for federal export promotion and financing
activities and provide a plan to bring the activities of the TPCC agencies into line with the
government-wide priorities.

ITA’s response contains a detailed discussion of the TPCC’s historical evolution and suggests
that our report should include such a discussion. We recognize that, over the past 15 years,
TPCC initiatives have substantially contributed to federal export promotion efforts, but do not
agree that this history is directly relevant to our discussion of the TPCC’s current strategic
planning process. ITA’s discussion of the TPCC’s “Historic Record Promoting Change” is
included in our final report, however, as part of the appendix containing ITA’s response to our
draft report.

ITA’s response identifies the TPCC’s unique contribution to federal trade promotion efforts as
“ensuring that the federal government is pursuing the right set of priorities (based on
Administration trade policies and the realities of the global marketplace).” The response further
notes that federal export promotion priorities should change to reflect changes in U.S. and
foreign economic activity. We fully agree with ITA on these points. We recognize that export
promotion priorities should evolve to remain relevant with changing economic conditions, and
never stated or implied that export promotion priorities should be static.

The response further states that “tethering the TPCC to measuring the performance of existing
programs would be a duplication of agencies’ own management responsibility, OMB oversight,
and a distraction from the TPCC’s more strategic and productive role in developing new
priorities and promoting change.” Our draft report never stated or implied that the TPCC should
duplicate existing performance assessment processes or restrict federal trade promotion priorities
to those already identified in agency-specific strategic planning objectives. Rather, we noted that
the various agency-specific strategic planning processes are not well connected to the TPCC’s
government-wide strategic planning efforts for trade promotion activities. We therefore
recommend that the TPCC seek to align agency-specific strategic objectives with government-
wide export promotion strategic goals. If the TPCC is to serve a useful role in articulating and
promoting government-wide export promotion priorities, these priorities should be reflected in
the strategic objectives and performance measures of its member agencies. We have revised the
report’s discussion of the TPCC strategic planning process and performance measures in order to
clarify this misunderstanding of the language in our draft report.

Despite its stated reservations about our draft report, ITA’s response outlined several useful steps
that the TPCC would take to enhance its strategic planning process and address our
recommendations in that area. ITA indicated that the TPCC Secretariat will undertake a survey
of the TPCC agencies’ strategic plans and Performance and Accountability Reports “to
strengthen the TPCC’s ongoing efforts to encourage agencies to coordinate efforts and avoid
duplication and overlap whenever possible.” The TPCC also plans to “more systematically



                                                10
U.S. Department of Commerce                                                   Final Report IPE-18589
Office of Inspector General                                                           September 2007

report on progress implementing select programmatic initiatives from one year to the next.” In
its response, ITA indicated that it would continue to use the annual NES to report agencies’
progress on programmatic performance and programmatic initiatives that address the TPCC
priorities. ITA noted in its response that the TPCC plans to return to a tracking model used in
the 2002-2004 National Export Strategy reports to monitor the TPCC’s progress implementing
programmatic change. ITA’s response makes a “distinction between measuring progress
implementing programmatic change and measuring ongoing program performance,” the latter of
which it states is the responsibility of individual agencies and OMB.

We appreciate ITA’s commitment to create and sustain processes through the TPCC that would
facilitate interagency collaboration on a more participatory National Export Strategy. As part of
its action plan, we request that ITA outline in more detail its proposals to (1) incorporate TPCC
agencies’ strategic plans and performance reports into the TPCC strategic planning process and
(2) report more systematically in the National Export Strategy on progress towards implementing
“programmatic initiatives from one year to the next.” We also ask that ITA address more fully
our recommendations on identifying core export promotion strategic goals and objectives
through the interagency consultative process and coordinating agency-specific strategic goals
with government-wide export promotion priorities. Additionally, we ask that ITA provide us
with copies of any relevant guidance that the TPCC Secretariat has provided or will provide to its
member agencies regarding the National Export Strategy process.

With regard to our recommendation about expanding TPCC membership, ITA’s response
discusses the potential difficulties of including the Millennium Challenge Corporation (MCC) as
a full member of the TPCC, which ITA had previously discussed with OIG staff. We recognize
that MCC’s primary mission is to reduce global poverty through economic development, and that
MCC may want to avoid having its assistance projects perceived as being trade promotion
efforts. As noted in our report, however, MCC’s mission and activities make the agency a prime
candidate for inclusion in the TPCC. Close collaboration between MCC and the federal trade
promotion agencies could improve the effectiveness of MCC’s economic development efforts as
well as the trade promotion activities of the TPCC agencies. ITA’s response indicates a
continued commitment to working with MCC whenever practical to coordinate these activities,
noting that it would work with MCC staff and with OMB to determine ways “to increase the
visibility of MCC opportunities with the U.S. exporting community,” whether or not MCC
agrees to full membership in the TPCC. The TPCC Secretariat should continue to include MCC
in relevant activities, as permitted by practical constraints and, as appropriate, should seek to
update the TPCC membership roster to ensure that it includes all federal agencies with a stake in
trade promotion efforts.

We request that ITA submit its action plan within 60 days of this final report to address the status
of our recommendations.




                                                11
U.S. Department of Commerce                                          Final Report IPE-18589
Office of Inspector General                                                  September 2007

                        Appendix: ITA Response to OIG Draft Report




                                           12
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              13
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              14
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              15
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              16
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              17
U.S. Department of Commerce        Final Report IPE-18589
Office of Inspector General                September 2007




                              18
